June 9, 2021
By Electronic Filing and Overnight Delivery
Scott Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk,
1 First Street, N.E.
Washington, D.C. 20543
Re:

Carl Wayne Buntion v. Bobby Lumpkin, Director, Texas Department of
Criminal Justice, No. 20-8043

Dear Mr. Harris:
This letter is to request a 30-day extension of time, up to and including July
16, 2021, in which to file a brief in opposition in the above-styled cause. This
request for an extension of time is not intended to unnecessarily delay this
proceeding. Rather, due to a previously existing deadline in another case and
the recent assignment of this voluminous case to the undersigned attorney,
the undersigned requires additional time to sufficiently address the issues
raised in Buntion’s petition.
The undersigned communicated with David Dow, counsel for Buntion, who
does not oppose this motion.
Thank you for your consideration of this matter.
Sincerely,
CARA HANNA
Assistant Attorney General
(512) 936-1400
cc:

David R. Dow
University of Houston
4604 Calhoun Road

Jeffrey R. Newberry
University of Houston Law Center
4604 Calhoun Road

POST OFFICE BOX 12548, AUSTIN, TEXAS 78711-2548

TEL:(512)

463-2100

An Equal Employment Opportunity Employer

WEB: WWW.TEXASATTORNEYGENERAL.GOV

Houston, TX 77204-6060
713-743-2171
Fax: 713-743-2131
ddow@uh.edu

Houston, TX 77204-6060
713-743-6843
Fax: 713-743-2131
jrnewber@central.uh.edu

